<html>
<title> - ASSESSING U.S. POLICY PRIORITIES IN THE MIDDLE EAST</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          ASSESSING U.S. POLICY PRIORITIES IN THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 3, 2019

                               __________

                           Serial No. 116-24

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-791PDF                   WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="087867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>                             
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas   

                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
               
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman

GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California		     STEVE CHABOT, Ohio
COLIN ALLRED, Texas		     ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey	     LEE ZELDIN, New York
DAVID TRONE, Maryland		     BRIAN MAST, Florida
BRAD SHERMAN, California	     BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts	     GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California		     STEVE WATKINS, Kansas

                      Casey Kustin, Staff Director
                            
                            
                            C O N T E N T S
                            
  
                              ----------                              
                                                                   Page

                               WITNESSES

Ewers, Elisa Catalano, Adjunct Senior Fellow, Middle East 
  Security Program, Center for a New American Security...........     8
Benaim, Daniel, Senior Fellow, Center for American Progress......    18
Pletka, Danielle, Senior Vice President, Foreign and Defense 
  Policy Studies, American Enterprise Institute..................    28

                                APPENDIX

Hearing Notice...................................................    46
Hearing Minutes..................................................    47
Hearing Attendance...............................................    48
Questions for the record from Representative Allred..............    49

 
          ASSESSING U.S. POLICY PRIORITIES IN THE MIDDLE EAST

                             April 3, 2019

                        House of Representatives

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 2:36 p.m., in 
Room 2172 Rayburn House Office Building, Hon. Theodore E. 
Deutch (chairman of the subcommittee) presiding.
    Mr. Deutch. All right. This hearing will come to order. 
Welcome, everyone.
    The subcommittee is meeting today to hear testimony on U.S. 
policy priorities in the Middle East. I thank our witnesses for 
appearing today and I will start by recognizing myself for an 
opening statement.
    Thanks to our panel. Thanks for being here today. Thanks 
for the work you do for our Nation.
    At the outset of the 116th Congress and 2 years into the 
Trump administration, the United States faces a multitude of 
challenges in the Middle East.
    We just marked the eighth anniversary of the start of the 
war in Syria, which has led to the deaths of more than half a 
million people, the displacement of millions both inside Syria 
and in neighboring countries.
    The conflict and humanitarian crisis that it created has 
the potential to reshape the region literally for decades to 
come. Iran continues to support Bashar al-Assad and carry out 
its destabilizing activities in countries from Lebanon to Yemen 
to Iraq.
    Outside powers, such as Russia, use military force, 
economic support, and weapons sales to increase their regional 
influence at the expense of the United States.
    Libya is fractured. Yemen is ravaged by civil war, the 
intervention of regional States, and the world's worst 
humanitarian crisis.
    While these issues receive the bulk of the headlines and 
media attention, other events and trends also deserve our 
focus. Tunisia's nascent democracy confronts serious economic 
and political challenges.
    Algeria's president submitted his resignation yesterday 
after two decades in power. The dispute splitting the Gulf 
Cooperation Council is at a stalemate and Israel has threats on 
its borders and peace that is still elusive.
    A youth bulge--approximately 45 percent of the Middle East 
is under 25 years old--presents a myriad of challenges and 
opportunities in the coming decade and more than 8 years after 
millions took to the streets around the region in protest of 
corruption and autocracy, too many regional governments remain 
unaccountable to their people and opposed to democracy and open 
civil society and human rights.
    In the wake of these challenges the United States requires 
a well-formulated clear-eyed approach to the Middle East. 
Unfortunately, the administration's policy toward the region is 
confusing and, at some points, seemingly incoherent.
    The president announced the rapid and complete withdrawal 
of U.S. troops in Syria in December with little notice given to 
international allies and partners on the ground.
    This decision prompted the resignation of Secretary of 
Defense Jim Mattis and Special Envoy to Defeat ISIS Brett 
McGurk. Yet, the administration now plans to keep anywhere from 
400 to 1,000 troops in Syria, a number that changes in the 
press almost by the day, and U.S. long-term strategy in Syria 
remains elusive and ambiguous.
    In Yemen, the Trump administration has offered unstinting 
support to Saudi Arabia and the UAE, and while I recognize--
understand the risks posed by the Houthis and Iranian forces in 
Yemen, the conflict has led to tens of thousands of civilian 
casualties.
    It has shifted focus from al-Qaeda in the Arabian Peninsula 
and has worsened this horrific humanitarian crisis and 
catastrophe.
    Furthermore, the Trump administration has offered an 
inconsistent message on human rights and democratic values. At 
a time when many are questioning the American commitment to the 
region, the administration has too often turned a blind eye to 
human rights abuses and has equivocated in expressing support 
for democratic development in the Middle East.
    I believe our relationships with regional States are vital 
to our national security and to geopolitical stability. These 
are ties that are enduring and many date to the end of the 
Second World War.
    However, we should view our relationship with regional 
States through the prism of our own interests and values. Where 
do our priorities align? What type of actions undermine our 
goals and undermine U.S. values?
    We should be honest in reassessing where our interests and 
values diverge and identifying actions that set back our mutual 
objectives and in expressing our opposition when our allies and 
partners do not live up to those standards.
    Furthermore, while the Trump administration often 
articulates maximalist goals in the Middle East, it has cut the 
resources needed to achieve them.
    For the third straight year the Trump administration has 
proposed drastic cuts to our foreign affairs budget. The Fiscal 
Year 2020 Trump budget request includes a 6 percent drop in 
funding for the Bureau of Near Eastern Affairs, compared to 
Fiscal Year 2019.
    This subcommittee has oversight responsibility over the NEA 
budget and I hope this hearing can help us better grasp the 
trends, the challenges, and opportunities facing the United 
States and the Middle East and help us better execute our 
oversight responsibility.
    I also hope the witnesses will provide an honest assessment 
of recent U.S. policy and how the U.S. Government, specifically 
Congress, can take steps to foster a more successful approach 
to the region that secures our national interests without 
sacrificing the values that make us unique and admired around 
the world.
    I thank the witnesses for appearing and I now turn to 
Ranking Member Wilson for his opening statement.
    Mr. Wilson. Thank you, Chairman Deutch.
    The complexities of the Middle East pose enduring 
challenges to U.S. interests in the region and have vexed both 
Republican and Democratic administrations alike.
    It is certainly not a region for the faint of heart. Just a 
cursory glance at the Middle East can be overwhelming. At the 
same time, I am grateful that the Trump administration has been 
achieving some important successes in such a complicated 
environment.
    The Trump administration has presided over the defeat of 
ISIS's so-called caliphate. This certainly does not mean the 
threat from ISIS has been neutralized, but seizing ISIS's 
territory denies the terrorist group both a lucrative profit 
stream as well as a safe haven from which to orchestrate 
attacks against the U.S. and our allies.
    There is no doubt that this is a major achievement that has 
made our country and world safer. President Trump rightfully 
withdrew from the flawed Iran nuclear agreement.
    The Trump administration has increased the pressure on 
Tehran to--in response to its reckless development of ballistic 
missiles and continued sponsorship of global terrorism.
    The pressure on Iran has yielded concrete dividends. U.S. 
sanctions have prevented Iran from delivering any oil to its 
Syrian client, the Assad regime, since January 2d.
    In the last 3 months of 2018, Iran was sending 66,000 
barrels a day to Syria. The Syrian will never forget that it 
was the Trump administration that finally enforced the previous 
administration's ``red line,'' striking Assad twice for using 
chemical weapons against civilians.
    Sanctions in Iran have also affected Tehran's sponsorship 
of regional terrorism. Just last week reports indicated that 
Iran had to slash payments to fighter in Syria by a third due 
to the pain of the American sanctions.
    Even employees of Hezbollah have missed paychecks and lost 
perks. The administration has also made the bold move of 
designated major Iranian-backed militias for terrorism 
including the Nujaba in Iraq and the brigades of Afghan and 
Pakistani mercenaries Iran has been exploited as cheap fodder 
in Syria's bloody civil war.
    Under the leadership of President Trump, the dynamics of 
the Middle East appear to be shifting. His first international 
trip was to Riyadh where Gulf Cooperation Council countries 
along with other Muslim countries agreed on the need to counter 
extremism.
    The journey is far from complete but the step was 
unprecedented and positive. In February, the administration 
convened a conference in Warsaw, bringing Arab countries and 
Israel together to confront the Iranian regional threat. 
Notably, this came after the Trump administration's relocation 
of the U.S. embassy in Israel to Jerusalem, a move that many 
incorrectly predicted would upend ties between the Jewish State 
and its Arab neighbors.
    The Trump administration must continue to build on these 
achievements. Like Chairman Deutch, I too was concerned by the 
August 2018 decision to freeze U.S. stabilization funding to 
Syria and the 2018 decision to withdraw troops from the 
country.
    There is simply no substitute for U.S. leadership in the 
Middle East, especially given that Russia and Iran are more 
than happy to fill the void.
    The administration must also continue going after the 
Iranian-backed militias in Iraq. Some of these militias won 
seats in Iraq's parliamentary elections in May and stand to 
receive U.S. taxpayer money sent to the Iraqi government.
    These groups include those with American blood on their 
hands such as the AAH and the Badr Organization. It is time to 
correct this long-time standing failure of U.S. policy and 
cutoff all armed groups taking orders from the mullahs in 
Tehran.
    There is no way to simplify the thorny challenges to the 
U.S. policy in the Middle East. This is a region that will 
unfortunately continue to trouble U.S. policymakers for years 
to come.
    While we may disagree on the details, I think we can all 
agree on one guiding principle. U.S. leadership and engagement 
in the Middle East is essential.
    I look forward to hearing from our expert witnesses today. 
I yield back.
    Mr. Deutch. Thank you, Mr. Wilson.
    I will now recognize members of the subcommittee for a 1-
minute opening statement should they wish to make one.
    Mr. Chabot, you are recognized.
    Mr. Chabot. Thank you, Mr. Chairman. I will be brief.
    As a former chair of this committee, I just want to 
emphasize that the importance of U.S. engagement it is just 
critical.
    It really cannot be overemphasized, and I would just note 
that the chair did tag this administration with their policy 
being--I think confusing, incoherent were the terms that the 
gentleman used, and I would--I would just make the point that I 
think many, including myself, believe that the previous 
administration's policies there were far worse from, for 
example--and I happened to also chair the Asia and Pacific 
Subcommittee a while back, and the previous administration was 
bound and determined to de-emphasize our role in the Middle 
East and pivot was the initial term they used to Asia.
    And then they later on called it a rebalance because pivot 
seemed a little too clear on what they were trying to do and 
rebalance, for whatever reason, seemed a little more 
politically correct.
    And, ultimately, it is questionable whether they did that 
or not. I would argue they perhaps de-emphasized both regions 
rather than strengthen us in either place, which was a mistake.
    The previous administration famously drew a red line and 
then ignored it, and we have seen untold deaths in Syria as a 
direct result of that policy, and probably the most disastrous 
thing the previous administration did was that after all the 
blood and treasure that were spent in Iraq was then to, against 
the advice of just about everybody, just pull all our troops 
out.
    Having been there a number of times, having talked to 
troops and the leaders on the ground and our allies there, no 
one really anticipated that the administration would actually 
do that, but they did, and that left a power vacuum which then 
was filled by ISIS and we saw the horrors that occurred under 
the hands of ISIS.
    And then the administration's response to that--yes, they 
ultimately did respond after they had taken over a significant 
portion of the area, especially Iraq, but also Syria.
    And then they kind of handcuffed our troops there and we 
were not really able to respond as was necessary. The current 
administration took those handcuffs off and we saw the demise 
of ISIS.
    That does not mean that we can ignore them. Some of them 
scattered into other areas and so we have to, I think, be very 
aware that they could still be a threat. But compared to where 
they were, we are much better off.
    So just a few points. We do need to continue to be engaged 
in the Middle East and work with our allies there.
    I yield back.
    Mr. Deutch. Thank you, Mr. Chabot.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the length limitation in the rules.
    I will now introduce our witnesses. First, Ms. Elisa 
Catalano Ewers is an adjunct senior fellow at the Center For a 
New American Security and a faculty lecturer at the Johns 
Hopkins University Paul H. Nitze School of Advanced 
International Studies.
    For over a decade, Ms. Catalano Ewers served in senior 
foreign policy and national security positions in the U.S. 
Government including as a director for the Middle East and 
North Africa on the National Security Council staff and in 
multiple positions at the Department of State.
    Mr. Daniel Benaim is a senior fellow at the Center for 
American Progress, researching U.S. policy in the Middle East 
as well as a visiting assistant professor at New York 
University's program in international relations.
    He previously served as a Middle East policy advisor and 
foreign policy speech writer at the White House, the Department 
of State, and the U.S. Senate. He was also an international 
affairs fellow at the Council on Foreign Relations.
    And, finally, Ms. Danielle Pletka is senior vice president 
for foreign and defense policy studies at the American 
Enterprise Institute where she oversees the institute's work on 
foreign and defense issues.
    She is also an adjunct professor at Georgetown University's 
Walsh School of Foreign Service. Ms. Pletka was a long-time 
senior professional staff member for the Senate Committee on 
Foreign Relations where she specialized in Near East and South 
Asia and where she also worked with our friend who is not here 
so I will wait until he returns to reunite the two of you.
    Thanks very much to all of our witnesses. We appreciate 
your being here. We appreciate your taking the time to offer 
your insight with this committee, and Ms. Catalano Ewers, I 
will recognize you first.
    I will remind all of the witnesses to please limit your 
testimony to 5 minutes and, without objection, your prepared 
written statements will be made a part of the hearing record.
    Again, thanks so much, and Ms. Catalano Ewers, you are 
recognized.

STATEMENT OF MS. CATALANO EWERS, ADJUNCT SENIOR FELLOW, MIDDLE 
   EAST SECURITY PROGRAM, CENTER FOR A NEW AMERICAN SECURITY

    Ms. Catalano Ewers. Thank you.
    Chairman Deutch, Ranking Member Wilson, distinguished 
members of the committee, thank you for the opportunity to join 
you here today. I am humbled to be sitting here alongside two 
very respected colleagues.
    Nation States and institutions in the region have suffered 
severe blows. Some States have turned inward, like Egypt. Some 
have disintegrated, like Syria. And others have taken on a more 
aggressive foreign policy, like Saudi Arabia.
    Non-State actors such as al-Qaeda and the Islamic State 
have sought to exploit these power vacuums and multiple levels 
of competition are happening across the region.
    The perception of the last decade is a United States in 
withdrawal. Whether the perception is correct or not is no 
longer the point. This view has unsettled partners and 
encouraged competitors.
    What happens in the Middle East rarely stays there, whether 
in the form of clear and imminent threats, such as terrorism or 
proliferation, or more intractable threats, like the 
humanitarian crises that reverb inside and outside the region.
    The reality is that the United States cannot extricate 
itself from the region and should not try to. However, it could 
deploy itself smartly and more effectively.
    This administration inherited these systemic challenges. It 
also inherited strategies, some of which, like the counter ISIS 
campaign, has managed to pursue its success. But such campaigns 
never end with battlefield wins.
    The administration has also relied on cults of personality 
rather than statecraft. It has placed a high value on 
individual personal relations with Egypt, Saudi, and others at 
the expense of institutional engagement.
    It has promulgated rhetoric but also a sense of 
unpredictability. Some governments in the region may embrace 
the more aggressive posture on Iran but the Syria withdrawal 
announcement, the lack of active engagement with Iraq, and the 
absence at the highest level of U.S. diplomatic pressure in 
Yemen all illustrate that there is not a single comprehensive 
regional strategy on Iran.
    It has ignored bad actions from partners in pursuit of 
wins. The administration's unwillingness to press partners when 
they act inconsistently with U.S. interests conveys a sense 
that some have a blank check.
    Going forward, we will need to watch for the resurgence of 
groups like ISIS and al-Qaeda, the disintegration of political 
processes in Syria, Yemen, and Libya, the unintended escalation 
and conflict between Israel and Hezbollah or conflict in the 
seas around the Arabian Peninsula, humanitarian displacement 
and refugee crises, repression against citizens across the 
region, and the consequences of unanswered economic and 
political grievances.
    In light of all this complexity, I would offer just a 
number of immediate steps Congress could consider. First, 
Congress should exercise its powers to receive a full strategy 
on Iran beyond just the campaign of economic pressure.
    Congress should act consistent with the notion that 
diplomacy and development are tools of first resort, continue 
the trend of restoring budgets to the State Department and 
USAID, and field qualified Ambassadors and senior officials.
    Congress should insist that the administration pursue 
diplomatic ends, ways, and means, such as actively supporting 
political negotiations in Yemen and sustaining full partnership 
with Iraq.
    Congress should also insist that the U.S. support to 
partners comes with a firm commitment to hold partners 
accountable for their actions. This includes a full accounting 
into the murder of Jamal Khashoggi.
    The United States retains leverage but it must be 
exercised. Congress should continue to remind partners that the 
United States' views on human rights violations and overall 
repressive policies are part of the continuum of regional 
instability, not separate from it.
    There is no shortage of bipartisan issues on which Congress 
can use the power of its own outreach, its pulpit, and its 
purse to support balanced and reasoned approaches. Whether it 
be support for Israel's security while also keeping the road to 
peace viable or reaffirming commitments to the security of 
regional partners without conceding to proxy wars throughout 
the region, Congress can help ensure U.S. relationships are 
assessed honestly and in all of their complexity.
    I look forward to your questions, and thank you again.
    [The prepared statement of Ms. Catalano Ewers follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you, Ms. Catalano Ewers.
    Mr. Benaim, you are recognized.

  STATEMENT OF MR. BENAIM, SENIOR FELLOW, CENTER FOR AMERICAN 
                            PROGRESS

    Mr. Benaim. Thank you, Mr. Chairman, Ranking Member, and 
members of the committee. I appreciate this opportunity and 
invitation to testify.
    I start from the premise that no party and no president has 
monopoly on wisdom or wishful thinking, on success or failure, 
least of all in this region that has thwarted so many good 
intentions.
    There are no easy choices, but there are better and worse 
ones, in my mind, and better and worse outcomes to expect as a 
result.
    The retaking of the last ISIS-held villages in Syria, a 
bipartisan project started by one president and finished by 
another, shows that U.S. leadership can still tackle major 
regional challenges.
    But other developments make clear the need for 
congressional oversight and tough questions in service of 
bringing out the best policies to serve the country's interest.
    That starts with making sure that ISIS cannot come back, 
Iran cannot acquire a nuclear weapon or hurt our allies, 
protecting our ally, Israel, and key partners.
    But I would argue that these goals cannot be cleanly 
separated from the destabilization and radicalization due to 
ongoing regional conflicts and deficits outlined over the years 
in the Arab Human Development Reports.
    Two years in, I am worried that the current approach will 
leave the Middle East's conflicts deeper and the region less 
stable, more dangerous, and more likely to require U.S. 
resources and attention for years to come.
    Two years in, I would say the record is decidedly mixed. I 
think the Trump administration deserves credit for seeing 
through the military campaign against ISIS in Iraq and Syria.
    But I am worried that they are under investing in the 
aftermath. They have sought to reorient Middle East policy 
around Iran but have yet to offer a realistic path to reconcile 
maximalist goals and rhetoric with minimal investment beyond 
sanctions to create the conditions for progress.
    They have sought to restore regional partnerships that the 
chairman spoke of earlier. But they have done so too often by 
offering a blank check to Saudi Arabia and giving rulers 
impunity for abuses at home and destabilizing moves abroad.
    This committee has held, I thought, commendable hearings on 
the subject of Yemen and I agree with the need to use 
legislation to end U.S. support for the war in Yemen and to 
send a clear signal and give leverage to people pushing for 
peace to turn a cease-fire into peace talks_while still 
fighting al-Qaeda and helping Saudi Arabia defend its territory 
against Houthi missiles.
    Tools and process also matter to outcomes, and I worry also 
about a systematic downgrading and even dismantling of 
diplomacy and development, leading to uneven and overly 
personalized approaches that seem to be hurting what should be 
broad bipartisan support for key partnerships.
    Instead, in brief, I would enhance civilian engagement 
post-ISIS in Iraq and Syria. I would reset the terms for a 
partnership and cooperation with Saudi Arabia and demand more 
responsible action.
    I would vote to end U.S. support for the war in Yemen in 
service of a larger peace, which is a bigger project than 
simply voting on U.S. support.
    I would demand an Iran strategy with realistic objectives, 
and I would protect U.S. diplomacy and development and seek to 
restore human rights as a U.S. policy priority.
    It is not easy, but it is essential to engage with not just 
States and rulers but societies who will be drivers for long-
term stability or instability.
    I thank you for having me and look forward to your 
questions.
    [The prepared statement of Mr. Benaim follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you, Mr. Benaim.
    Ms. Pletka, you are recognized.

  STATEMENT OF MS. PLETKA, SENIOR VICE PRESIDENT, FOREIGN AND 
     DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE

    Ms. Pletka. Mr. Chairman, Mr. Wilson, and members of the 
committee, it is always an honor to testify before this 
committee.
    If I may, I would like to suggest an amendment to the 
question you pose in this hearing. You ask what are U.S. policy 
priorities in the Middle East, and that question really cannot 
be answered without asking what the United States seeks to 
achieve in the region.
    If our only interest is the immediate suppression of ISIS, 
our leaders should feel free to declare mission accomplished. 
But for those of us who recognize that ISIS is the fourth 
iteration of what used to be called al-Qaeda in Iraq and that 
it will be back, sooner or later, the truth is that our mission 
is far from accomplished.
    Indeed, it seems right to question what our mission 
actually is, not just in Syria but throughout the region. The 
real question before us is what is the just and lasting end 
game for the United States in the Middle East.
    We can talk about Syria, and we will, or Iraq or Iran or 
Yemen or Saudi Arabia in endless detail. I promise. And your 
members can offer more legislation disincentivizing terrorism, 
incentivizing cooperation with U.S. allies, arming good guys, 
sanctioning bad guys.
    But without an end game, our policies are nothing more than 
this year's tactics. What should the end game be? To my mind, 
the right question to ask is how future presidents of the 
United States can avoid being drawn into Middle Eastern 
conflicts.
    The problems of the Middle East are national; they are 
sectarian, regional, political, and economic in nature. Some 
have suggested that the right thing to do is to ignore them and 
let the people of the region sort them out. After all, why does 
who governs Yemen or Syria matter in Florida or South Carolina?
    And the answer is, for the most part, it does not until it 
does. Because we so often wait for a problem to become a 
crisis, those in the Middle East who are suffering under 
tyranny or inequality or discrimination or privation seek 
solutions that do have an impact on us.
    Think of the people of Syria turning to ISIS or the 
Shi'ites of Yemen turning to the Houthis or the people of Iran 
turning to the ayatollahs. Problems that were smaller and 
manageable become unmanageable challenges to U.S. interests and 
security.
    The region attracts Salafi jihadis, outside powers, and 
sundry bad actors because it is rife with opportunity and the 
question before us whether we want to continue to give them 
those opportunities.
    Every time we decide to do so, Americans are put in harm's 
way. Every time we decided Iran does not matter, Hezbollah does 
not matter or Shi'ites get what they deserve or Saudis deserve 
to be threatened or southern Yemenis do not deserve access to 
their nation's wealth or Libyans are somehow ungovernable or 
Muslims are uninterested in democracy, we open the door to 
those who offer to resolve those problems for the region.
    So what should our policies be? In Lebanon, we need to end 
the fiction that the government is independent of Hezbollah, a 
terrorist group. Any other nation in that situation would not 
be allowed to have a U.S.-designated terrorist group sitting in 
the cabinet and itself avoid designation as a State sponsor.
    We need to more aggressively pinpoint Hezbollah financiers 
and supporters. We need to be more sure that the Lebanese armed 
forces has absolutely no relationship with Hezbollah. I am 
certainly not sure of that.
    In Syria, we definitely need to support Syrian democratic 
forces and oppose the reinstatement of the Assad regime. We 
need to keep the Russians out. We need to penalize the Iranians 
as strongly as possible for their involvement in Iraq.
    As my colleague said, we need to end the involvement of the 
popular mobilization forces in the Iraqi government and we need 
to compete with the Iranians on the ground. In Saudi, we need 
to demand the end to imprisonment and targeting of political 
dissidents and move toward a peace process in Yemen, 
understanding that that is a two-sided problem. We need to lean 
on the Iranians for perpetuating that conflict as well.
    We need to signal to Saudi Arabia that global arms sales 
are contingent on improvement in its rights and military 
records, but to do that, we need to work with our allies to 
ensure that they do not back fill where we pull out.
    In Yemen, we definitely need to recognize the complexity of 
the situation on the ground and bring both parties to the 
table. We also need to remember al-Qaeda and ISIS are not 
defeated in Yemen. That is a battle that we need to work with 
our Arab allies to continue in our own national security 
interests.
    And on Iran, we need to begin to answer the questions that 
underpin the Trump administration's very successful sanctions 
campaign. What is the aim of that campaign?
    Is it regime change or is it something else? Those are 
legitimate questions to ask. Salafi jihadi groups, including 
ISIS and others, need to--we need to be clear these groups 
remain resilient.
    When they leave Syria, Iraq, and, I hope, Yemen, they have 
opened beachheads in Africa and in Southeast Asia.
    I am going to finish in a second. But, you know, there are 
just so many challenges in the region. I did not list half of 
them. We have not talked about Algeria or Libya or Egypt or 
Israel and the Palestinians.
    Our priority should be getting our strategy right rather 
than constantly addressing the most recent crisis. We can do a 
lot of good in the Middle East. It is really time we think 
about both the challenges and the opportunities.
    Thank you for your time.
    [The prepared statement of Ms. Pletka follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you, Ms. Pletka.
    Thanks to all of our witnesses for your excellent 
testimony. I will--I will begin the questions.
    Ms. Pletka, I will actually--I will accept your premise for 
the hearing. What do we seek to achieve? What is our mission? I 
am going to ask those questions about Syria because that is the 
place where so many of these issues in the region come 
together.
    The Syrian policy and--Mr. Chabot, I was referring only to 
the Syria policy in my opening comments--but the Syria policy I 
do find confusing.
    I noticed many of us the decision to pull back our military 
presence and to declare ISIS defeated, depending upon how you 
characterize it--the end of the caliphate--we all acknowledge 
that ISIS can come back--that the fighters are--that they are 
still fighters--that they could take back territory in months.
    So as we make those pronouncements are not we turning our 
back on the SDF and then are we relying on shaky talks with 
Turkey to prevent a military incursion?
    We have got the stagnant peace process that we hope results 
in the ejection of foreign forces. But Iran continues to cement 
its position in Syria, which poses a threat there and to our 
allies.
    And, Ms. Pletka, you said our goal in Syria ought to be to 
keep the Russians--to keep the Russians out and to prevent 
Assad from holding power. It looks like we failed on both 
counts.
    I do not want to see the U.S. in an unending war. But our 
current policy seems to simply perpetuate chaos and 
instability. What should it look like, Ms. Pletka, to your 
question?
    What should our mission--how should we be defining our 
mission in Syria, since it is not clear that that has been 
defined or, ultimately, what we are doing to accomplish that 
mission?
    Ms. Pletka. Thank you for being amendable to the question.
    It is the important one to ask. What we need to achieve in 
Syria is a lasting and secure government that rests on the 
authority of the Syrian people. That should be the end game in 
Syria.
    If we know what that end game is, we can begin to work 
toward it. I think there are ways, but I agree with you, they 
do involve the continued commitment of U.S. troops.
    You said absolutely rightly that there is a coincidence of 
the moral and the strategic imperative. Martin Indyk and I said 
the exact same thing to the Obama Administration. People like 
you and people like me were ignored when we said that when this 
problem was eminently solvable.
    It is much harder now. But we need to recognize that 
through proxies, if we continue with train and equip, if we 
leave troops on the ground, if we use the territory that has 
already been liberated, and if we are committed to the notion 
that Assad cannot remain and therefore that we must work with 
the Syrian people to find an alternative government to which we 
can lend some credibility and authority along with the current 
liberated Syrian people, we will begin at that moment to 
understand how we can build the blocks toward that.
    Mr. Deutch. Thanks.
    Mr. Benaim, what role does--I mean, you talked about the 
need to focus on our values and human rights need to be a U.S. 
policy priority. I agree with you.
    That should be the case, I would argue, through the entire 
region. What happens when it is not viewed that way? How does 
that impact our ability to succeed in Syria or to hold our 
allies together as we confront Iran, for example?
    Mr. Benaim. Well, thank you very much for the question.
    I think what happens when human rights are not respected is 
you see a growing trend of impunity where one regime's actions 
embolden another and that is certainly the case. I think that 
it is a tragedy that Bashar al-Assad has been able to do what 
he has been able to do in the western half of Syria. And to see 
what has happened and his efforts to consolidate power in 
western Syria is to have regrets about that.
    I think from where we stand today, it seems to me that 
Assad is likely to remain in power in Damascus and that no 
configuration of forces is well positioned to remove him in the 
near term.
    In eastern Syria, however, there is a real live dynamic 
process underway and a U.S. opportunity for--a U.S. opportunity 
to shape the terms of the rest of Syria over territory where 
the U.S. has exercised a security guarantee and protected a 
group of people who have fought very ably against ISIS and are 
still figuring out the terms of their readmission into Syria.
    And I would think about how to use that leverage in that 
time, even having squandered some of it and already announcing 
a departure. I would think about how to use that to shape 
meaningful autonomy in eastern Syria and changing western Syria 
as well as possible.
    Mr. Deutch. Thanks.
    Ms. Catalano, just a really quick answer before I turn it 
over to Mr. Wilson. If we leaned in more to the American value 
of human rights as we interacted with Saudi Arabia, would it 
change Saudi behavior?
    Ms. Catalano Ewers. I think the short answer is it does not 
matter whether it changes Saudi behavior in the near term or in 
the longer term. It needs to be talked about.
    This is part and parcel of what relationships with friends 
include and that sometimes is a hard conversation, and when we 
do not include that in our consistent and constant engagement 
with Saudi Arabia, we send the signal that it is something the 
United States does not care about.
    And so to the extent that it has to be part of how we 
approach our engagement our relationships, it is vital to do. I 
would argue it probably does on the margins have impact over 
time, as long as we look at it as a constant and strategic 
element of our discourse.
    Mr. Deutch. OK. And I know we will get to talk more about 
that.
    Mr. Wilson, you are recognized.
    Mr. Wilson. And thank you, Mr. Chairman, and thank each of 
you for being here today.
    Ms. Pletka, last May I was grateful to lead the 
congressional delegation with the opening of the U.S. embassy 
in Jerusalem, the capital of Israel.
    At the same time, policymakers and analysts suggested that 
such a move would result in major negative consequences for the 
region.
    What have been the consequences?
    Ms. Pletka. All of the warnings that were made about the 
region lighting on fire, about all of the Arabs who had moved 
closer to Israel in concert with--in concert with Israel's 
efforts against Iran actually did not do as was predicted.
    There was certainly some pro forma reactions from Arab 
States, much stronger reactions from Palestinians and from the 
Iranians, from Lebanon and from Syria.
    But I think that in terms of what many predicted, frankly, 
at a certain moment I was not sure either. The reaction was 
very, very different than it would have been 10 years ago or 20 
years ago or 30 years ago.
    That is a remarkable change in the Middle East.
    Mr. Wilson. And it is great to see that Congress had 
authorized this back in 1994, and so it has been achieved.
    And Ms. Ewers and Mr. Benaim, one of the--it is 
disappointing to see the electoral gains that Hezbollah and its 
allies made last May and by Hezbollah's control over the health 
ministry in the new Lebanese government.
    It is clear that the U.S. strategy to counter Hezbollah's 
influence in Lebanon has not been as successful as it needs to 
be. What changes do you see need to be made to have greater 
success in countering Hezbollah in Lebanon and what role would 
any U.S. assistance have in the revised strategy?
    Ms. Catalano Ewers. Thank you, Congressman. I think part of 
what I will say is do no harm. How do you--how do we ensure 
that Hezbollah and Iran continue to use Lebanon for whatever 
nefarious activity you want to list, whether it be a position 
from which to threaten Israel or to continue to foment 
instability in Syria?
    To detach entirely from our engagement from Lebanon, I 
believe, would be a fundamental mistake. I think it is 
difficult but not impossible to be able to find those areas, 
whether it be in supporting institutions that demonstrate that 
they are not completely owned subsidiaries of Hezbollah inside 
of Lebanon and to cultivate relationships with opposition 
groups and political leaders inside the system.
    It will be a long, long game. It will not have results 
overnight. But it is one where the United States and, more 
importantly, its Arab partners in the region have an interest 
in ensuring that Lebanon is not completely ceded to Iran.
    Mr. Benaim. I mean, I think first and foremost we have to 
support a strong Israeli military deterrent against Hezbollah.
    What they are able to do inside Lebanon, they have gained a 
great deal of power and I think that we should strongly 
sanction Hezbollah as we have and I think that we should look 
for areas of the Lebanese armed forces that we can work with.
    But I think taking our ball and going home--what we have to 
do is engage and compete here. Show up places and act, because 
ceding the entire country to Iran and Hezbollah only puts us in 
a weaker position, I think, ultimately.
    Mr. Wilson. And I was grateful, Ms. Pletka. You actually 
cited the Hezbollah influence in Lebanon earlier. What is your 
view of how we can counter this?
    Ms. Pletka. I agree with my colleagues. I do not think the 
right thing to do was to turn around and simply give up on 
Lebanon, although I think Hezbollah and Iranian influence has 
grown very, very dramatically.
    We need to be a little bit more honest with ourselves about 
the influence that Hezbollah has inside the government and in 
the Lebanese armed forces and in the Lebanese banking system.
    Our Treasury Department has been after the Central Bank for 
some time but not with complete success, and the reality is 
that for as long as we are willing to look away because we want 
to preserve some goodness in Lebanon that is separate from 
Hezbollah and Iran, the more we make excuses for certain 
sectors of the government that Hezbollah then uses to finance 
itself and to arm itself and to extend its power throughout the 
country.
    So it is a real challenge. We need to compete and we need 
to use our leverage a lot more than we currently are.
    Mr. Wilson. And I have had the opportunity to visit Beirut 
and Lebanon itself. What an extraordinary country it has been 
and can be in the future.
    And so I appreciate each of you having a positive proposal 
on how we can help restore what was an extraordinary country 
back to what it should be.
    Thank you very much.
    Mr. Deutch. Thank you, Mr. Wilson.
    Mr. Malinowski, you are recognized.
    Mr. Malinowski. Thank you, Mr. Chairman.
    When then current administration took office in 2017, 
President Trump made his trip to Saudi Arabia, changed a bunch 
of policies. He met with the king of Bahrain and he said that 
Bahrain would not have to worry anymore about strains in our 
relationship over human rights.
    Resumed arms sales to that country. Resumed arms sales that 
had been suspended to Saudi Arabia over the use of those arms 
in the war in Yemen.
    A question to any of you--what signal did that send to the 
region about our commitment to human rights and the post-Arab 
Spring Middle East?
    Mr. Benaim. I think that the signal that it sent was a 
fairly clear one of impunity and it was--the literal words that 
he used were, ``You will not have a problem anymore.''
    And it is striking that the hands that held that glowing 
orb in Riyadh went back to their own countries and in fairly 
short order in Saudi launched the Qatar blockade, a policy that 
has divided U.S. partners; in Bahrain, went back and arrested, 
I think, 300 people from the village of Isa Qassim, the major 
opposition leader; and in Egypt, went back and signed a 
restrictive civil society law that had been sitting on the 
president's desk for 6 months.
    Now, I think on these questions of how to think about U.S. 
influence over authoritarians in the Middle East, we have to 
keep two truths in mind: one of which is that each of these 
authoritarians is dealing with their own internal dynamic and 
is domestically driven, in many ways; but we set the conditions 
externally and the dynamics in which they act. And I think when 
you see a set of steps like that in rapid order, what you are 
seeing is the effect of a green light.
    It is not to suggest that had we done nothing they would 
have, you know, acted very differently or been more--much more 
virtuous. But I think you do see a real calculable effect of 
impunity there.
    Ms. Pletka. If I may, you certainly--you know--I think you 
know full well what the signal was that was sent and I think 
that the countries in the region got it as well.
    Unfortunately, we have been sending that signal for a long 
time. The reality is cutting off the Bahrainis, punishing the 
Saudis, was the end of the process that should have been paid 
attention to long ago. The Obama Administration and even the 
Bush and previous administrations have not paid attention.
    There was a minority government in Bahrain. The majority 
Shi'ites are oppressed. The United States has done almost 
nothing to stand with them and has ceded that ground to the 
Iranians over decades.
    The fact is we have our Fifth Fleet there. The fact is that 
we have forces in Qatar and this also causes us to make 
concessions to the kind of governance that we see that we ought 
to be pushing against.
    It is not--it is not just--it is not just Donald Trump.
    Mr. Malinowski. Oh, I would agree with you. Nothing is 
quite that simple. I would suggest there is a slight difference 
between the inconsistency of our previous approach and the 
tremendous consistency of our current approach.
    Let me ask you the follow-on question, though, because I 
think this is an interesting part of the dynamic. Does that 
signal help us or hurt us with respect to Iran?
    In other words, when we give the impression that we are no 
longer even inconsistently going to press the Saudis, the 
Emiratis, the Egyptians, on human rights, torture, women, 
living within their constitutions, allowing public protest, et 
cetera, how does it affect our ability to reach out to the 
Iranian people and to promote whether you want to call it 
reform, regime change, or respect for human rights, the kind of 
change that we all want to see in that country?
    Ms. Catalano Ewers. I am happy--I am happy to start.
    I think it is demoralizing to populations who are looking 
for signals from the international community--not just from the 
United States but, more broadly, that acknowledge their 
legitimate grievances.
    And so for a population like that of Iran, it simply 
underscores what the United States is not willing to engage on 
and that is the wellbeing of the people.
    I would also add to that that it continues to assist the 
regime in Iran to do what it does best, which is exploit 
grievances not just inside of Iran but outside of it, right.
    So when you look at Yemen, when you look at Bahrain, when 
you look at Iraq, when you look at Syria, the lack of 
consistency and the way the United States talks about the 
values of human rights allows those communities that are 
disenfranchised to become much more exploitable by Iran 
relatively cheaply and with little effort.
    Mr. Benaim. I think it also undercuts the message that--
supposedly being sent to the Iranian people that we care about 
their human rights and their wellbeing.
    It sometimes seems as though human rights are a weapon that 
you use against your enemy in the way that they are applied 
rather than something that we should support to make our 
partners stronger and more durable and viable over time.
    So I think there is that as well, and I mean, the nature of 
Iranian influence--the reason that it has grown_is their 
ability to exploit these kinds of rifts, fault lines, societal 
grievances, to make proxies out of minorities within countries 
that--or even majorities that_have not been treated well.
    So I think even just on the basic idea of containing Iran, 
a policy that abjures human rights, we should be clear that it 
does earn good will from leaders. Leaders appreciate not having 
to answer these questions. And that is exactly why we should 
ask them.
    Mr. Deutch. Thank you. Thanks, Mr. Malinowski.
    Mr. Zeldin, you are recognized.
    Mr. Zeldin. Well, thank you, Mr. Chairman, for having this 
hearing, and I guess kind of building off of this exchange that 
was just happening but, you know, taking in a couple of other 
directions, I was critical of the entry into the Iran nuclear 
deal. There might be a diversity of opinion among today's 
speakers. Thank you to today's witnesses for being here.
    At the time, I was outspoken about the need to tackle 
Iran's other non-nuclear bad activities because the leverage 
that brought the Iranians to the table--they wanted the 
sanctions relief. When we negotiated away the sanctions relief 
in entering the Iran nuclear deal there was a lot that we were 
not negotiating.
    But before I get to a couple of the human rights issues, I 
just wanted to ask a question, and this applies regardless of 
whether you are the strongest supporter of the Iran nuclear 
deal or the biggest critic of the Iran nuclear deal.
    Regardless, there is still an issue with regard--with 
respect to the sunset provisions, with the verification regime, 
and the non-nuclear bad activities.
    But specifically with regard to the first two, anything 
that the witnesses can add? Whether you support the deal or 
not, there is an issue with regards to sunset provisions and 
the verification regime.
    Path forward for U.S. foreign policy?
    Mr. Benaim. I think, you know, you negotiate the best deal 
that you can get. And whether you oppose it or not, there were 
indeed provisions that over time would allow the Iranians very 
slowly to begin enriching again.
    There are some provisions of the deal that extend 
permanently and the fact is that the visibility and 
verification under the deal is far greater than under any other 
equivalent agreement and would continue indefinitely.
    These are unsatisfying answers to many, I realize that.
    Mr. Zeldin. In all fairness, I mean, with all due respect, 
I, as a Member of Congress, I have not read the verification. 
This side deal that was entered into with IAEA and Iran has not 
even been provided to Congress.
    When John Kerry was here sitting in your seat, I asked him 
if he had read the verification deal between the IAEA and Iran 
and he said no. He said he had been briefed on it.
    So it is hard to defend the verification regime to enforce 
the Iran nuclear deal. I do not know of a single Member of 
Congress who has even seen it.
    Mr. Benaim. I cannot speak to the details of that 
particular verification.
    Mr. Zeldin. What about the sunset provisions that do exist? 
What do you recommend as far as a path forward if we were to be 
able to re-enter negotiations?
    Mr. Benaim. I think--I think it is the right question.
    Mr. Deutch. Excuse me, Mr. Benaim. Can you pull the mic in 
front a little closer, please?
    Mr. Benaim. Oh, yes, absolutely, Mr. Chairman.
    Mr. Deutch. Great.
    Mr. Benaim. Is that better?
    It is exactly the right question because, ultimately, 
whether you supported this deal or opposed it, what we are 
trying to do here is accumulate pressure toward an end.
    Pressure is not the goal. The goal is a change in Iranian 
behavior. The nuclear question is the single--as our allies 
told us, when Iran was one to 3 months away from a nuclear 
break out, this is the single question that can take every 
other issue and turbo charge it and put a nuclear deterrent 
behind it or lead the United States into war.
    Now, I think it is going to be hard to re-enter this 
agreement because we are going to ask Iran to buy the same 
horse twice, essentially, to make concessions for things that 
we did not deliver the last time.
    But I think it is going to be necessary to try to offer 
more to get more time, because you are right, we need more 
time. We need longer restrictions and that may, frankly, 
require offering more in return.
    But I think that is what we need to do because there are 
not other choices. Eventually, Iran will start to enrich again, 
absent an agreement, and we need a new and better deal.
    Mr. Zeldin. And we are running a little short on time and I 
want to hear from you with regards to their LGBT issues that we 
are seeing in the Middle East. We are reading about the new 
news today from Brunei.
    Congressman Cicilline and I have been involved in an effort 
with regard to Chechnya. It is all over the world. So I want 
you to be able to speak about LGBT and the human rights.
    But I would just also offer there has been a lot of 
misinformation that has gone on all around the world as it 
relates to Iran's behavior as it relates the IR-6s, IR-8s, 
access to military sites, acquiring heavy water, and more.
    But we only have a limited amount of time. Is there 
anything that you can add specifically, continuing the 
conversation that you had with Mr. Malinowski about this--I 
mean, there is growing bipartisan concern here in Congress with 
regards to criminalizing in the worst ways the LGBT community 
around the world and including Iran and elsewhere?
    Mr. Benaim. I think it is a terrific question and I am 
delighted that you asked it. I am in the process of doing 
research on this topic with a group of graduate students at 
NYU.
    These are human rights. They should be part of human 
rights. When we talk about human rights anywhere, we should be 
talking about these issues as well. And we may disagree about 
marriage or other things. But we can all agree on stoning to 
death. We can all agree that somebody whose life is in danger 
for their orientation should be able to gain humanitarian 
parole. These are the kinds of things that we can and should 
work on, in some places quietly because they create a backlash 
that can be disadvantageous to the people involved.
    But I think it is a bold and important area and I am 
delighted to see it gain bipartisan support and have a degree 
of policy continuity going forward. Because I think it is part 
of the future of human rights.
    Mr. Zeldin. Well, for lack of time I will have to yield 
back to the chair. Thank you.
    Mr. Deutch. OK. Thanks.
    Mr. Trone, you are recognized.
    Mr. Trone. Thank you, Mr. Chairman.
    This week marks the sixth month anniversary since Jamal 
Khashoggi was murdered inside the Saudi consulate in Istanbul. 
Our own intelligence community has indicated the Crown Prince, 
Mohammad bin Salman, has been responsible of the murder. We all 
could agree this is unacceptable. It goes against all notions 
of human rights and dignity.
    I have been disappointed by President Trump's response, 
which is basically no response. What should Congress be doing 
to ensure Saudi leadership does not take away the message that 
they are free to kill dissidents, use diplomatic cover to do 
so, and how do we send a clear message to the kingdom we cannot 
tolerate these actions?
    Let us start on the left and work our way across.
    Ms. Catalano Ewers. Thank you for the question, 
Congressman.
    I think what Congress has been doing to date is exactly 
what it needs to continue to do, and more, keeping the 
spotlight on this. Despite the fact that the administration is 
less interested in talking about this in a full-throated way, 
particularly publicly, leaves this body with some of that work 
and I think that this Congress needs to continue to demand the 
information that it demanded last week from Secretary Pompeo, 
which means full transparency with respect to the information 
that is available, and whatever continues to become available 
with respect to the murder of Jamal Khashoggi.
    I think this needs to be scrutinized. I think, based on 
your judgments of that information, there could be discussion 
about an independent investigation that goes beyond what was 
started by the U.N. earlier this year, but I think keeping 
conversation both publicly and, of course, privately when 
Members of Congress as well as the administration talks to the 
Saudi government about why this is so fundamentally against 
U.S. interests.
    Mr. Benaim. I agree. We need a full accounting. We need a 
full accounting and no impunity, and I think the clearest and 
most important message to send is that this kind of thing 
affects the entire nature of the partnership.
    This goes to basic questions of judgment and I think that 
this is part and parcel of other reckless moves that we have 
seen require a broader review of all sorts of cooperation that 
we would engage in with an ally where we respected their 
judgement. But, in this case, we might have to think twice 
about including offensive weaponry and nuclear cooperation and 
U.S. security and intelligence firms that have worked with 
Saudi as well.
    Mr. Trone. Do you think we should discontinue those 
efforts?
    Mr. Benaim. No, I think we should take a careful look at 
each one and figure out which is appropriate and which is not. 
I think that with Saudi Arabia we have to be careful to both 
send a message of impunity and not tear down the relationship 
as a whole. But I think on offensive weaponry there certainly 
are things that we should pull back on.
    Mr. Trone. But if we coach--if we coach the discussion 
regarding aimed at that one individual--not at the kingdom 
itself but the individual--that did this act that we are 
setting up to rule the kingdom for the next 50 years, would not 
it be better to bite the bullet now?
    Mr. Benaim. It is a very good question and it is a very 
complicated question, and I think we should follow the law 
where it takes us here in terms of a full and transparent 
accounting in whatever legal sanction exists there.
    And I think when it comes to somebody who may rule a 
country for 50 years, we should look for the possibility to 
treat it as a country and get that country to be incentivized 
to behave more responsibly.
    You have got your hands around the core of dilemma--the 
crux of the dilemma, which is that singling out a person risks 
giving impunity and singling out a person risks damaging a 
relationship for half a century.
    And I think we should follow the law. Follow the Magnitsky 
Act. Let the law goes where it takes us and demand a full 
investigation with no impunity.
    Ms. Pletka. First I would like to welcome back everybody 
who I really, really missed during the Obama Administration and 
your support for democracy and human freedom.
    Where were you?
    Second of all, Jamal Khashoggi did not deserve to be 
murdered by anybody. But I want to really underscore the point 
that he is not the only person who has been murdered by his 
government, right, that we have ignored for the last decade, 
whether it is our friends in Egypt.
    And you want to talk about LGBT rights? How much money do 
we give Egypt? We do not give any money to Saudi Arabia. What 
about our NATO ally, Turkey, that is so excited about the Jamal 
Khashoggi murder that they are leaking to us all of their 
intelligence about surveillance on the Saudi consulate.
    And yet, it is the country with the most journalists in 
prison of any country in the world--the country that we just 
had to cutoff F-35 purchases to because they are buying an S-
400 air defense system from the Russians.
    What I am trying to say is not that we should excuse the 
murder of Jamal Khashoggi or that we should not investigate it 
to its fullest. What I am saying is that if those are our 
standards, then let them be our standards about everything and 
everybody.
    You will have my support.
    Mr. Trone. Thank you very much.
    Mr. Deutch. Thank you.
    Mr. Cicilline, you are recognized.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you for 
calling this hearing to examine U.S. policy in what is truly a 
very important region of the world, and thank you to our 
witnesses for sharing your insights.
    I think, like many members of this committee, I am deeply 
concerned about the lack of clarity, the contradictions, and 
the dangerous decisions that have been offered as a substitute 
for cohesive policy toward the Middle East and North Africa by 
this administration.
    On issue after issue, we see a truly alarming lack of 
strategy or clear priorities. In Syria, we are leaving 1 
minute, staying the next. The administration's unilateral 
actions vis-a-vis Israel have caused considerable concern 
regarding the prospect for peace and a two-State solution.
    In Saudi Arabia, the administration embraces a crown prince 
who is believed to have had a journalist hacked to death. In 
Yemen, the administration supports a military operation that 
furthers a conflict with catastrophic humanitarian 
consequences.
    In Iraq, millions of dollars in foreign assistance has been 
redirected from established aid institutions to instead fund 
religious organizations with little oversight or transparency.
    The administration unilaterally pulled out the Iran nuclear 
deal with no plan to stem Iran's nuclear ambitions, and so it 
goes on and on. Throughout the region we see no coherent 
strategy or policy. It seems that the administration lurches 
from one half-baked idea to the next with dire and sometimes 
deadly consequences.
    So I do think this is an opportunity for Congress and this 
committee in particular to hold the administration to account 
and to ensure that some coherent strategy is actually developed 
and implemented.
    So I would first like to ask a broad question, because 
there has been a lot of discussion about our values, and I am 
just wondering whether the witnesses believe that this 
administration's de-emphasis of human rights, which I think 
most objective observers would say is a fact, that whether or 
not that has harmed our image in this region of the world? Has 
it reduced our leverage?
    Because we all remain very concerned about what it means to 
America's leadership in the world and our ability to kind of 
exercise real influence in the Middle East.
    But I am wondering whether your view is that this de-
emphasis, which seems very clear and noticed by leaders around 
the world whether that is in fact happening. I will start with 
you, if I may, Ms. Catalano Ewers.
    Ms. Catalano Ewers. Thank you very much for the question.
    I think the de-emphasis has harmed our leverage to the 
extent that those partners who are perhaps quite content to not 
have it be part of the conversation, it is a freebie, right.
    It allows them to continue to take these actions, whether 
it be the arrests of journalists or of oppositionists or 
actions more severe like assassinations. The fact that this 
administration has not found it necessary both privately and 
diplomatically as well as publicly to keep this as part of the 
discussion.
    It is not a zero sum. It is not the only issue we talk to 
partners about. But that it is not consistently raised suggests 
to these leaders that we do not care and in fact they can act 
with impunity.
    And so I think it has--it has eroded leverage 
unnecessarily.
    Mr. Cicilline. Mr. Benaim?
    Mr. Benaim. I think that is exactly right. I think that is 
exactly right. I think that this is something that they do not 
want to talk about and sometimes they have convinced their 
publics not to trust us about.
    So I do not think it is as clear cut, as everywhere we go, 
when we talk about this, publics cheer. There is nationalism in 
many of these countries. It is an underrated force at work in 
places like Egypt, Saudi Arabia, and Iraq, and criticizing the 
government can lead to that kind of backlash.
    But I think what is important is that it gives governments 
pause engaging in these kinds of activities to know that we 
just might show up and actually exercise our values.
    Now, the natural by-product of mixing principle and 
prudence is inconsistency. It is what happens. It is part of 
balancing our various interests.
    But the fact that we care and the fact that we show up 
really does constrain behavior in ways that I think are 
meaningful.
    So I think it is less about our influence with populations 
than our leverage to work on things we care about. And, 
ultimately it is about the value of these partnerships and the 
ability of our partners to hold up as durable partners and not 
find ourselves in the kind of situation we do with Saudi Arabia 
where their domestic repression makes them a less valuable 
partner for the things we need to do together.
    Mr. Cicilline. And is that problem exacerbated when the 
president of the United States in fact describes the free press 
as enemies of the people, questions the legitimacy of election 
outcomes, attacks the rule of law in this country, or the 
independence of the judiciary or undermines law enforcement?
    It seems really difficult for the United States to be an 
effective powerful advocate for democracy, rule of law, self-
governance, frankly, when we have a president of the United 
States who is saying things which undermine those very 
institutions we are trying to promote.
    How can Congress respond to that in an effective way if 
there is any way? Or am I just being overly sensitive?
    Mr. Benaim. I think you have described the problem 
admirably and I think you have, hopefully, opportunities to 
vote on all sorts of matters pertaining to the promotion of and 
preservation of various democratic institutions and reform and 
revitalization of them in this country.
    And it is outside of my expertise that I have been brought 
to discuss before the committee. But I think it is all very 
deeply connected.
    Mr. Cicilline. Thank you. I yield back, Mr. Chairman.
    Mr. Deutch. Thank you.
    Mr. Sherman, you are recognized.
    Mr. Sherman. Thank you. We have spent several hundred hours 
in this room, now maybe several thousand hours in this room, 
trying to discuss what policies would prevent Iran from getting 
its hands on a nuclear weapon.
    I would like to discuss preventing Saudi Arabia from 
getting its hands on a nuclear weapon, because as I have said 
all too graphically and all too often, if you cannot trust a 
regime with a bone saw, you should not trust them with nuclear 
weapons.
    Now, the Emirates entered into a nuclear cooperation 
agreement with the United States with all the controls. But 
they are going forward, apparently, with nuclear power. I do 
not know if this is within the expertise of any of our 
panellists.
    Are the Emiratis going forward with generating nuclear 
power and does it make any economic sense, given that they are 
on a peninsula that produces far more natural gas than it 
consumes and therefore that natural gas is either flared or, at 
great expense, liquefied?
    So does it make sense if you are on the Arabian Peninsula 
to generate electricity with nuclear power the way the Emiratis 
say they are going to do?
    Anybody have an answer?
    Ms. Pletka. It depends what your attitude toward nuclear 
power is as an environmental issue. Certainly----
    Mr. Sherman. I have never--the Green New Deal is a major 
motivating factor in many places. Probably not Dubai.
    Ms. Pletka. I have not spoken to them about that.
    Mr. Sherman. So assume that--I mean, obviously, there is 
some reputational plus for saying we are not emitting 
greenhouse gases. There is a minus for saying we are using 
nuclear power. Nobody ever got the Sierra Club award by 
building a nuclear power plant. Assume that they are 
indifferent for their worldwide image and on the carbon issue.
    Ms. Pletka. I actually think it is a very interesting area 
of questioning and I think it is an important area for Congress 
to pursue. The United--the United----
    Mr. Sherman. OK. If there is--if there is anybody that can 
get us an answer for the record, that would be helpful----
    Ms. Pletka. I would be happy----
    Mr. Sherman [continuing]. Because I know these questions 
are coming out of left or right field.
    So, now, one question that answers itself. Saudi Arabia 
could enter into a nuclear cooperation agreement with us with 
all the controls that the Emiratis agreed to. They are balking 
at that because they want the capacity to do more than generate 
electricity with nuclear power.
    Does this inference or anything else cause you to think 
that the Saudis would like to have the capacity to move toward 
a nuclear weapon, should they later make the decision to go 
forward?
    I will start with--yes.
    Ms. Catalano Ewers. Thank you, Congressman.
    I will start with the end of that question and then--and 
then add a couple of points. I am not sure that I would infer 
directly that the desire to not adhere to the same kind of 
agreement that the UAE already has with the United States on 
civil nuclear energy is directly attributable to Saudi Arabia's 
desire to maintain the ability to develop a nuclear weapon at 
some point.
    I think it has as much to do with issues of sovereignty, 
certainly, Saudi Arabia's desire to not telegraph that it gets 
a shorter deal than Iran.
    And so I think there are other considerations.
    Mr. Sherman. Well, I would point out, the deal Iran gets is 
significant limits on its nuclear program and enemy status with 
the United States. They get both of that.
    So to say that will they get to have a few centrifuges, 
they get centrifuges and if there is any sanction that we can 
put on them that we have not legislated, yes, that should be 
our next market.
    Ms. Catalano Ewers. I wholly concur, Congressman.
    But I think from the perspective of the Saudi government--
--
    Mr. Sherman. Yes.
    Ms. Catalano Ewers [continuing]. There is this perception 
that if Iran has any indigenous enrichment capability, then the 
Saudis would not concede to giving that up just as a matter of 
practice.
    Now, I think when we come back to the discussion of a 1-2-3 
agreement with Saudi Arabia, what we need to keep in mind is 
what is in the primary U.S. interest and that is that agreement 
in various forms, and I am not an expert in this particular 
area, but I can say that we need to demand that commitment that 
abides by normative standards and----
    Mr. Sherman. And I see my time is----
    Ms. Catalano Ewers. Sorry.
    Mr. Sherman [continuing]. And I do want to bring up one 
thing. The administration has issued seven licenses under Part 
810 to allow the transfer of nuclear technology to Saudi Arabia 
and Congress has not one millimeter of knowledge as to what is 
in it. That is a departure from the--from not only practice but 
law.
    And I hope this committee joins with my committee, which is 
the Nonproliferation Committee, among other things, in 
demanding that we get those Part 810 licenses. And it is simply 
absurd for the administration to say yes, Congress has a role 
with regard to nuclear cooperation agreements so we will figure 
out a way to transfer nuclear technology to the Saudis without 
having such an agreement.
    And with that, I yield back.
    Mr. Deutch. Thank you very much.
    I thank the witnesses and all of the members for being here 
today. Witnesses, thanks for your testimony.
    Members to the subcommittee may have some additional 
questions for you. We ask that you respond in writing to any of 
those questions.
    I request my colleagues--to my colleagues that any witness 
questions be submitted to the subcommittee clerk within five 
business days on a whole range of issues that we will be 
touching on over the rest of this Congress--our alliances and 
security and democracy and terrorism and human rights, and so 
many others.
    Thanks for helping to set the stage for what comes next.
    And with that, this committee is adjourned.
    [Whereupon, at 3:45 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
